Case: 20-11020

Date Filed: 06/12/2020

Page: 1 of 2

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-11020-E

ROBERT L. CLARK,
Plaintiff-Appellant,
versus

4<

CHIQUITA A. FYE,
in her official and individual capacity as
Medical Director of Macon State Prison,
GREGORY MCLAUGHLIN,
Macon State Prison,
Defendants-Appellees,
GEORGIA DEPARTMENT OF CORRECTIONS,
Prison Officials in their individual and official capacities, et al.,
Defendants.

Appeal from the United States District Court
for the Middle District of Georgia

Before: WILLIAM PRYOR, Chief Judge, ROSENBAUM AND NEWSOM, Circuit Judges.
BY THE COURT:
Robert L. Clark, a Georgia inmate, has filed a motion for reconsideration, pursuant to
llthCir. R. 27-2, of this Court’s order dated May 11, 2020, denying his motions for leave to
proceed based on imminent danger and for appointment of counsel in his appeal from the district
court’s grant of summary judgment to the defendants in his 42 U.S.C. § 1983 civil rights action.

RECEIVED
JUL 2 8 2020
_SUPREMEFr7^^L,^K

1

Case: 20-11020

Date Filed: 06/12/2020

Page: 2 of 2

Because Clark has not alleged any points of law or fact that this Court overlooked or
misapprehended in denying his motions, his motion for reconsideration is DENIED.

<
2

Case: 20-11020

Date Filed: 05/11/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Clerk of Court

For rules and forms visit
www.cal 1.uscourts.gov

May 11,2020
Clerk - Middle District of Georgia
U.S. District Court
475 MULBERRY ST
MACON, GA 31201
Appeal Number: 20-11020-E
Case Style: Robert Clark v. Chiquita Fye, et al
District Court Docket No: 5:18-cv-00071-MTT-MSH
The enclosed copy of this Court's Order of Dismissal is issued as the mandate of this court. See
11th Cir. R. 41-4. Counsel and pro se parties are advised that pursuant to 11th Cir. R. 27-2, "a
motion to reconsider, vacate, or modify an order must be filed within 21 days of the entry of
such order. No additional time shall be allowed for mailing."
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Gloria M. Powell, E
Phone #: (404)335-6184
Enclosure(s)
DIS-4 Multi-purpose dismissal letter

Case: 20-11020

Date Filed: 05/11/2020

Page: 1 of 3

(CORRECTED)
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-11020-E
ROBERT L. CLARK,
Plaintiff- Appellant,
versus
CHIQUITA A. FYE,
in her official and individual capacity as
Medical Director of Macon State Prison,
GREGORY MCLAUGHLIN,
Macon State Prison,
Defendants-Appellees,
GEORGIA DEPARTMENT OF CORRECTIONS,
Prison Officials in their individual and official capacities, et al.,
Defendants.
Appeal from the United States District Court
for the Middle District of Georgia
Before: WILLIAM PRYOR, ROSENBAUM and NEWSOM, Circuit Judges.
BY THE COURT:
Robert Clark, a Georgia inmate, filed an amended pro se civil rights complaint, pursuant
to 42 U.S.C. § 1983, against Dr. Chiquita Fye, the Georgia Department of Corrections (“GDOC”),
Georgia Correctional Healthcare, and Wardens Tony Howerton, Brown, Hilton Hall, Stephen
Roberts, Randy Tillman, Derrick Schofield, and Gregory McLaughlin (collectively, “the
wardens”). He alleged that officials at several Georgia prisons have refused to treat him for
Hepatitis B and bipolar disorder over the past 15 years. He stated that he was diagnosed with

Case: 20-11020

Date Filed: 05/11/2020

Page: 2 of 3

Hepatitis B in the mid-1990s and with bipolar disorder as a child, approximately 48 years before.
Specifically, he alleged that, in May 2013, he told Dr. Fye about his conditions and requested a
transfer, which she refused. He stated that he was presently dying of liver failure and suffered
from daily anxiety attacks, insomnia, pain in his side, painful bowel movements, numbness in his
legs, and severe stomach pain. He asked for damages and injunctive relief.
The district court dismissed the claims against GDOC and Georgia Correctional Healthcare
without prejudice on preliminary review and dismissed all other claims except those against
Dr. Fye and the claims for injunctive relief against Warden McLaughlin on the defendants’ motion.
Dr. Fye and Warden Clinton Perry—Warden McLaughlin’s successor, who was substituted
as a defendant pursuant to Fed. R. Civ. P. 25(d)—moved for summary judgment. They argued, in
relevant part, that the claims against Dr. Fye were time-barred because Clark only had one
interaction with Dr. Fye, on the day he arrived at the prison in May 2013, which was more than
two years before the complaint was filed. They presented evidence that Clark never claimed to
have Hepatitis B or bipolar disorder until he so indicated on his February 2018 medical history
form. They presented evidence that his previous medical history forms did not indicate a history
of Hepatitis B or bipolar disorder. They also submitted evidence that Clark was tested for
Hepatitis B in December 2018, and the results were negative. Additionally, Clark’s medical
records did not indicate that he had been diagnosed with bipolar disorder. A mental health
evaluation completed at the prison did not indicate a history of bipolar disorder. The district court
granted summary judgment and dismissed the complaint.
We have previously designated Clark as a three-striker, so we must determine whether he
is under imminent danger of serious physical injury. See 28 U.S.C. § 1915(g). Taking his
allegations as true, as we must in making an imminent-danger determination, he has sufficiently

2

Case: 20-11020

Date Filed: 05/11/2020

Page: 3 of 3

demonstrated that he is in imminent danger of serious physical injury, as he alleged he is suffering
liver failure, pain, and numbness related to a lack of treatment, and his hepatitis could lead to
serious injury if it remains untreated. Brown v. Johnson, 387 F.3d 1344,1349-50 (11th Cir. 2004).
Nonetheless, we conclude that his appeal is frivolous. The record shows that his last
interaction with Dr. Fye was in 2013—five years before he filed his complaint. Thus, his claims
against Dr. Fye were time-barred under Georgia’s two-year statute of limitation for § 1983 claims,
and he cannot raise a non-frivolous argument regarding the grant of summary judgment to Dr. Fye.
Caldwell v. Warden, FCI Talledega, 748 F.3d 1090, 1098 (11th Cir. 2014). Additionally, the
summary judgment record demonstrated that Clark was tested for Hepatitis B, but his results were
negative.

Thus, he cannot raise a non-frivolous argument regarding the grant of summary

judgment to Warden Perry because he was not entitled to an injunction requiring the Warden to
provide medical care for a disease he does not have. Taylor v. Adams, 221 F.3d 1254,1258 (11th
Cir. 2000). Likewise, there is no record evidence supporting Clark’s claim that he suffers from
bipolar disorder. The record shows that Clark completed several medical history forms while
imprisoned, and he did not indicate a history of bipolar disorder until he filled out the 2018 medical
history form, even though he stated in his complaint that he was diagnosed with bipolar disorder
as a child. Clark did not present any evidence beyond this statement in his pleadings to establish
that a genuine issue of material fact existed regarding his bipolar disorder. Matsushita Elec. Indus.
Co. v. Zenith Radio Corp., 475 U.S. 574, 587 (1986). Thus, his unsupported allegation that he
suffers from bipolar disorder was not enough to survive summary judgment against the Warden.
Ellis v. England, 432 F.3d 1321,1326 (11th Cir. 2005); see also Scott v. Harris, 550 U.S. 372, 380
(2007). Accordingly, we now find that the appeal is frivolous, DENY leave to proceed, and
DISMISS the appeal. We DENY AS MOOT Clark’s motion for appointment of counsel.

3

Case: 20-11020

Date Filed: 05/11/2020

Page: 1 of 3

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-11020-E
ROBERT L. CLARK,
versus
CHIQUITA A. FYE,
in her official and individual capacity as
Medical Director of Macon State Prison,
GREGORY MCLAUGHLIN,
Macon State Prison,
Defendants-Appellees,

GEORGIA DEPARTMENT OF CORRECTIONS,
Prison Officials in their individual and official capacities, et al.,
Defendants.
Appeal from the United States District Court
for the Middle District of Georgia
Before: WILLIAM PRYOR, ROSENBAUM and NEWSOM, Circuit Judges.
BY THE COURT:
Robert Clark, a Georgia inmate, filed an amended pro se civil rights complaint, pursuant
to 42 U.S.C. § 1983, against Dr. Chiquita Fye, the Georgia Department of Corrections (“GDOC”),
Georgia Correctional Healthcare, and Wardens Tony Howerton, Brown, Hilton Hall, Stephen
Roberts, Randy Tillman, Derrick Schofield, and Gregory McLaughlin (collectively, “the
wardens”). He alleged that officials at several Georgia prisons have refused to treat him for
Hepatitis B and bipolar disorder over the past 15 years. He stated that he was diagnosed with

Case: 20-11020

Date Filed: 05/11/2020

Page: 2 of 3

Hepatitis B in the mid-1990s and with bipolar disorder as a child, approximately 48 years before.
Specifically, he alleged that, in May 2013, he told Dr. Fye about his conditions and requested a
transfer, which she refused. He stated that he was presently dying of liver failure and suffered
from daily anxiety attacks, insomnia, pain in his side, painful bowel movements, numbness in his
legs, and severe stomach pain. He asked for damages and injunctive relief.
The district court dismissed the claims against GDOC and Georgia Correctional Healthcare
without prejudice on preliminary review and dismissed all other claims except those against
Dr. Fye and the claims for injunctive relief against Warden McLaughlin on the defendants’ motion.
Dr. Fye and Warden Clinton Perry—Warden McLaughlin’s successor, who was substituted
as a defendant pursuant to Fed. R. Civ. P. 25(d)—moved for summary judgment. They argued, in
relevant part, that the claims against Dr. Fye were time-barred because Clark only had one
interaction with Dr. Fye, on the day he arrived at the prison in May 2013, which was more than
two years before the complaint was filed. They presented evidence that Clark never claimed to
have Hepatitis B or bipolar disorder until he so indicated on his February 2018 medical history
form. They presented evidence that his previous medical history forms did not indicate a history
of Hepatitis B or bipolar disorder. They also submitted evidence that Clark was tested for
Hepatitis B in December 2018, and the results were negative. Additionally, Clark’s medical
records did not indicate that he had been diagnosed with bipolar disorder. A mental health
evaluation completed at the prison did not indicate a history of bipolar disorder. The district court
granted summary judgment and dismissed the complaint.
We have previously designated Clark as a three-striker, so we must determine whether he
is under imminent danger of serious physical injury. See 28 U.S.C. § 1915(g). Taking his
allegations as true, as we must in making an imminent-danger determination, he has sufficiently

2

Case: 20-11020

Date Filed: 05/11/2020

Page: 3 of 3

demonstrated that he is in imminent danger of serious physical injury, as he alleged he is suffering
liver failure, pain, and numbness related to a lack of treatment, and his hepatitis could lead to
serious injury if it remains untreated. Brown v. Johnson, 387 F.3d 1344, 1349-50 (11th Cir. 2004).
Nonetheless, we conclude that his appeal is frivolous. The record shows that his last
interaction with Dr. Fye was in 2013—five years before he filed his complaint. Thus, his claims
against Dr. Fye were time-barred under Georgia’s two-year statute of limitation for § 1983 claims,
and he cannot raise a non-frivolous argument regarding the grant of summary judgment to Dr. Fye.
Caldwell v. Warden, FCI Talledega, 748 F.3d 1090, 1098 (11th Cir. 2014). Additionally, the
summary judgment record demonstrated that Clark was tested for Hepatitis B, but his results were
negative.

Thus, he cannot raise a non-frivolous argument regarding the grant of summary

judgment to Warden Perry because he was not entitled to an injunction requiring the Warden to
provide medical care for a disease he does not have. Taylor v. Adams, 221 F.3d 1254, 1258 (11th
Cir. 2000). Likewise, there is no record evidence supporting Clark’s claim that he suffers from
bipolar disorder. The record shows that Clark completed several medical history forms while
imprisoned, and he did not indicate a history of bipolar disorder until he filled out the 2018 medical
history form, even though he stated in his complaint that he was diagnosed with bipolar disorder
as a child. Clark did not present any evidence beyond this statement in his pleadings to establish
that a genuine issue of material fact existed regarding his bipolar disorder. Matsushita Elec. Indus.
Co. v. Zenith Radio Corp., 475 U.S. 574,.587 (1986). Thus, his unsupported allegation that he
suffers from bipolar disorder was not enough to survive summary judgment against the Warden.
Ellis v. England, 432 F.3d 1321, 1326 (11th Cir. 2005); see also Scott v. Harris, 550 U.S. 372, 380
(2007). Accordingly, we now find that the appeal is frivolous, DENY leave to proceed, and
DISMISS the appeal. We DENY AS MOOT Clark’s motion for appointment of counsel.

3

Case 5:18-cv-00071-MTT-MSH Document 85 Filed 01/13/20 Page lot 25

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
MACON DIVISION
ROBERT L CLARK,
Plaintiff,
No. 5:18-CV-00071 -MTT-MSH
v.
CHIQUITA A FYE, et al.,
Defendants.

ORDER AND
RECOMMENDATION
Plaintiff, an inmate currently confined at Macon State Prison in Oglethorpe,
Georgia, filed a complaint seeking relief under 42 U.S.C. § 1983. Pending before the Court
are Plaintiffs motion for independent medical tests (ECF No. 63), motions to stay (ECF
Nos. 75, 79, 84), and motions to compel (ECF Nos. 80, 81). For the reasons stated below,
Plaintiffs motions are denied. Also pending is Defendants Fye and Perry’s motion for
summary judgment (ECF No. 65). The Court recommends that Defendants’ motion be
granted.
BACKGROUND
Plaintiffs claims arise from his medical care at facilities operated by the Georgia
Department of Corrections (“GDOC”). He alleges he was diagnosed with Hepatitis B in
1995. Compl. 5. He contends he also suffers from bipolar disease. Id. According to
Plaintiff, he informed Defendant Fye of his conditions upon his arrival at Macon State
Prison (“MSP”) on or about May 14, 2013. Id. He asserts prison officials have refused to

Case 5:18-cv-00071-MTT-MSH Document 85 Filed 01/13/20 Page 2 of 25

treat his conditions. Id. As a result, he states he suffers liver cirrhosis, numbness, pain,
heart problems, anxiety attacks, and sleeplessness.
At this stage, Plaintiffs deliberate indifference to medical needs claim against
Defendant Fye and his claim for injunctive relief against Defendants Fye and Perry i
remain. Order 4-5, May 29, 2018, ECF No. 15; Order 6-13, Mar. 26, 2019, EOF No. 56.
Defendants moved for summary judgment (ECF No. 65) on July 24, 2019. Plaintiff has
failed to respond. This motion is ripe for review.
DISCUSSION
I.

Plaintiffs Motions
A.

Motion for Independent Medical Tests

On July 5,2019, the Court received Plaintiffs motion for independent medical tests
(ECF No. 63). Plaintiff requests “outside doctors” to perform “independent blood tests and
a mental health test[ ]” on him. Mot. for Ind. Med. Tests 1, ECF No. 63. In support, he
cites Rule 35 of the Federal Rules of Civil Procedure. Id. Plaintiff argues these tests are
necessary because similar prior tests were performed by Quest—a company Plaintiff
claims is “used by the defendant” and, therefore, is biased. Id. In other words, Plaintiff
seeks to have the Court order a physical examination and have an expert witness appointed
for him.

1 The Court allowed Plaintiffs claim for equitable relief to proceed against MSP Warden
McLauglin. Order 11-13, Mar. 26, 2019. According to Defendants, Defendant Perry is now the
Warden of MSP. Mot. for Summ. J. 1 n.l, ECF No. 65; Perry Decl.
2-3, ECF No. 65-5.
Therefore, under Rule 25(d) of the Federal Rules of Civil Procedure, Defendant Perry is substituted
as a party. The Clerk is DIRECTED to amend the case caption accordingly.
2

Case 5:18-cv-00071-MTT-MSH Document 85 Filed 01/13/20 Page 3 of 25

Rule 35(a)(1) provides that a court may “order a party whose mental or physical
condition ... is in controversy to submit to a physical or mental examination by a suitably
licensed or certified examiner.” Such an order “may be made only on motion for good
cause.” Fed. R. Civ. P. 35(a)(2)(A). “[G]ood cause for an examination exists when a
person’s physical or mental state cannot be evidenced without the assistance of expert
medical testimony based on an examination.” Romano v. Interstate Express, Inc., No.
4:08-cv-121,2009 WL 211142, at * 1 (S.D. Ga. Jan. 28, 2009) (alteration in original). The
good cause requirement is “not met by mere conclusory allegations of the pleadings—nor
by mere relevance to the cause—but require[s] an affirmative showing by the movant. . .
that good cause exists for order [the] examination.” Schlagenhaufv. Holder, 379 U.S. 104,
118 (1964).

This is because “[t]he specific requirement of good cause would be

meaningless if [it] could be sufficiently established by merely showing that the desired
materials are relevant, for the relevancy standard has already been imposed by Rule 26(b).”
Id.
Here, Plaintiff has not established good cause for an examination under Rule 35.
His motion rests on mere conclusory statements that his prior examinations were biased
because the companies which performed the examinations were “used by defendants.”
Mot. for Ind. Med. Tests 1. Defendants respond that neither of the companies which
previously examined Plaintiff are “affiliated with the Georgia Department of Corrections.”
Resp. to Pl.’s Mot. for Ind. Med. Tests 2, ECF No. 67. Further, although Plaintiff is
proceeding IFP, he is required to fund the expenses of litigation—such as a medical
evaluation—like any other litigant. See Easley v. Dep’t of Corr., 590 F. App’x 860, 868
3

Case 5:18-cv-00071-MTT-MSH Document 85 Filed 01/13/20 Page 4 of 25

(11th Cir. 2014). “Rule 35 . . . does not vest the court with authority to appoint an expert
to examine a party wishing an examination of himself.” Brown v. United States, 74 F.
App’x. 611, 614 (7th Cir. 2003). “Rather, under appropriate circumstances, it [allows] the
court to order a party to submit to a physical examination at the request of an opposing
party.” Id. Plaintiff “seeks to compel the government to bear the cost of and responsibility
for hiring an expert witness to testify on his behalf [.]” Id. “[N]o civil litigant, even an
indigent one, has a legal right to such aid.” Id. Plaintiffs motion is thus denied.
B.

Motions to Stay

On August 19, 2019, the Court received Plaintiffs first motion to stay further
proceedings (ECF No. 75) in light of his notice of interlocutory appeal (ECF No. 69). In
support, Plaintiff states he “has filed an appeal with the [Eleventh] Circuit Court
concerning issues that could greatly change the course of this case and humbly ask[s] this
Honorable Court to wait on the rulings by the higher court.” PI.’s First Mot. to Stay 1, ECF
No. 75. On August 26, 2019, the Eleventh Circuit issued its mandate dismissing Plaintiffs
appeal. Mandate 1, ECF No. 76. Because Plaintiffs motion to stay relied entirely on this
appeal, his motion is denied.
On October 28, 2019, the Court received Plaintiffs second motion to stay
proceedings (ECF No. 79). Plaintiffs motion to stay is predicated on his motions to
compel (ECF Nos. 80, 81). He requests a stay for additional time to subpoena records,
obtain declarations, and serve discovery requests. Pl.’s Second Mot. to Stay 1, ECF No.
79. Because the Court denies Plaintiffs motions to compel for the reasons stated below,
his motion to stay is also denied.
4

Case 5:18-cv-00071-MTT-MSH Document 85 Filed 01/13/20 Page 5 of 25

On December 9, 2019, the Court received Plaintiffs motion to clarify request for
stay (ECF No. 84). The Court construes this as a renewed motion to stay proceedings.
Plaintiff s motion is predicated on his motion for independent medical tests (ECF No. 67),
as he again requests a stay to permit medical tests to be conducted by an “outside agency.”
Mot. to Clarify Request for Stay 2, ECF No. 84. Because the Court denies his motion for
independent medical tests for the reasons stated above, his motion to clarify request for
stay, which the Court construes as a renewed motion to stay, is also denied.
C.

Motions to Compel

On October 28, 2019, the Court received Plaintiffs first motion to compel (ECF
No. 80). Plaintiff includes twenty-five interrogatories and asks the Court to compel
Defendants to answer the interrogatories. See generally Pl.’s First Mot. to Compel 1-5,
ECF No. 80. Under Local Rule 37 of the Middle District of Georgia Local Rules,
“[m]otions to compel disclosure or discovery will not be considered unless they contain a
statement certifying that movant has in good faith conferred or attempted to confer with
the opposing party in an effort to secure the information without court action.” Plaintiff
failed to attach a statement indicating he attempted to confer with Defendant concerning
these discovery requests. In his motion to stay, which the Court received the same day,
Plaintiff states he “is also in the process of serving the defendant with a request for
interrogatory questions.” Pl.’s Second Mot. to Stay 1. Thus, it does not appear Plaintiff
served these interrogatories upon Defendants or conferred in good faith before filing his
motion to compel. His motion to compel is thus improper under the Court’s Local Rules.
Plaintiffs motion is denied.
5

Case 5:18-cv-00071-MTT-MSH Document 85 Filed 01/13/20 Page 6 of 25

On October 28, 2019, the Court also received Plaintiffs second motion to compel
(ECF No. 81). Plaintiff states he sent subpoenas to several “agencies” seeking medical
records. Pl.’s Second Mot. to Compel 1, ECF No. 81. Upon Plaintiffs request and in
accordance with Rule 45(a)(3) of the Federal Rules of Civil Procedure, the Clerk signed
and issued Plaintiff five blank subpoenas on August 2, 2019. See Mot. for Subpoenas 1,
ECF No. 68; Text-only Order, Aug. 2, 2019, ECF No. 71. He alleges the “agencies have
refused to honor a federal subpoena served by Plaintiff’ because they have not responded
to his requests. Id.
Plaintiff s motion to compel is denied for three reasons. First, Plaintiff fails to show
he gave appropriate notice to Defendants before serving his subpoenas. Under Rule
45(a)(4), “[i]f the subpoena commands the production of documents, electronically stored
information, or tangible things or the inspection of premises before trial, then before it is
served on the person to whom it is directed, a notice and a copy of the subpoena must be
served on each party.” Here, the Court received Plaintiffs proofs of service for his
subpoenas (ECF Nos. 73, 74) on August 12 and August 19, 2019—eight days and fifteen
days, respectively, after the Clerk issued the subpoenas. The record does not indicate, and
Plaintiff does not allege, that he notified Defendants of his intent to serve the subpoenas
before these dates. Therefore, Plaintiff has failed to comply with Rule 45(a)(4), and his
motion to compel should be denied for his failure to give proper notice.
Second, Plaintiff failed to file proper proofs of service. Under Rule 45(b)(4), proof
of service “requires filing with the issuing court a statement showing the date and manner
of service and the names of the persons served. The statement must be certified by the
6

Case 5:18-cv-00071-MTT-MSH Document 85 Filed 01/13/20 Page 7 of 25

server.” Here, Plaintiff filed four proofs of service in two separate filings. See Proof of
Service 1-3, Aug. 12, 2019, ECF No. 73; Proof of Service 1, Aug. 19, 2019, ECF No. 74.
Two of Plaintiff s proofs of service are unsigned. Proof of Service 2-3, Aug. 12, 2019.
Three omit the date that service was perfected. Id.-, Proof of Service 1, Aug. 19, 2019.
None indicate the manner of service. Pl.’s Second Mot. to Compel 1-2. By failing to sign
the proofs of service and omitting the date and manner of service, Plaintiff did not comply
with Rule 45(b)(4), and his motion to compel should be denied accordingly.
Third, even assuming Plaintiff properly noticed and served his subpoenas, he fails
to show he conferred in good faith before filing his motion to compel. Rule 37(a)(1) of the
Federal Rules of Civil Procedure provides that a motion to compel “must include a
certification that the movant has in good faith conferred or attempted to confer with the
person or party failing to make disclosure or discovery in an effort to obtain it without court
action.” Plaintiff failed to attach a statement indicating he attempted to confer with the
subpoenaed non-parties concerning the issues raised in his motion to compel. His motion
to compel is thus improper under Rule 37(a)(1). For these three reasons, Plaintiffs second
motion to compel is denied.
II.

Defendants’ Motion for Summary Judgment
Defendants move for summary judgment arguing (1) Plaintiffs claims against

Defendant Fye are time-barred by the statute of limitations, (2) Defendant Fye was not
deliberately indifferent to Plaintiffs serious medical needs, (3) Defendant Fye is entitled
to qualified immunity as to Plaintiffs claims against her in her individual capacity, and (4)
Plaintiff is not entitled to equitable relief from Defendants Perry and Fye. Defs.’ Br. in
7

Case 5:18-cv-00071-MTT-MSH Document 85 Filed 01/13/20 Page 8 of 25

Supp. of Mot. for Summ. J. 4-11, ECF No. 65-1. The Court recommends that Defendants’
motion be granted as to the second, third, and fourth grounds.
A.

Summary Judgment Standard

Summary judgment may be granted only “if the movant shows that there is no
genuine dispute as to any material fact and the movant is entitled to judgment as a matter
of law.” Fed. R. Civ. P. 56(a). In determining whether a genuine dispute of material fact
exists to defeat a motion for summary judgment, the evidence is viewed in the light most
favorable to the party opposing summary judgment, drawing all justifiable inferences in
the opposing party’s favor. Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 255 (1986). A
fact is material if it is relevant or necessary to the outcome of the suit. Id. at 248. A factual
dispute is genuine if the evidence would allow a reasonable jury to return a verdict for the
nonmoving party. Id.
B.

Undisputed Material Facts2

Plaintiff avers Oakland Children’s Flospital in Oakland, California first diagnosed
him with bipolar disease approximately forty-eight years ago. Pl.’s Dep. 20:21-21:18, ECF
No. 65-3. He states the Cobb County, Georgia Health Department rediagnosed him with

2 Plaintiff failed to comply with Local Rule 56 by not filing a specific response to each numbered
paragraph of Defendants’ statement of material facts. See M.D. Ga. L. R. 56 (“Response shall be
made to each of the movant’s numbered material facts.”). The purpose of this rule is to “protect[]
judicial resources by making the parties organize the evidence rather than leaving the burden upon
the district judge.” Reese v. Herbert, 527 F.3d 1253, 1268 (11th Cir. 2008) (quotation marks and
citation omitted). The Court could simply deem admitted those “material facts contained in the
[Defendants’] statement which are not specifically controverted by specific citation to particular
parts of materials in the record.” M.D. Ga. L. R. 56. Nevertheless, the Court has reviewed the
entire record of the case, and if evidence in the record shows that a fact is disputed, the Court has
drawn all justifiable inferences in his favor for purposes of summary judgment. Maxwell v.
Brennan, No. 5:16-cv-572-MTT, 2018 WL 2072850, at *2 n.2 (M.D. Ga. May 3, 2018).
8

Case 5:18-cv-00071-MTT-MSH Document 85 Filed 01/13/20 Page 9 of 25

bipolar disease in 2000 and prescribed him Prozac to treat his condition. Id. at 21:19-22:02.
He contends he took Prozac from 2000 until he was incarcerated in 2004. Id. at 22:0122:06. Plaintiff alleges a plasma donation center in Las Vegas, Nevada first diagnosed him
with Hepatitis B in 1994. Id. at 9:18-10:09. He contends a blood bank in Oakland,
California rediagnosed him with Hepatitis B in 1996. Id. at 12:12-12:25. He never sought
treatment for Hepatitis B before incarceration. Id. at 10:10-10:22.
Plaintiff first entered GDOC custody in 2004, when he was incarcerated at Georgia
Diagnostic Classification Prison (“GDCP”) in Jackson, Georgia. Pl.’s Dep. 10:13-10:16.
On September 15, 2004, Plaintiff and a GDCP nurse completed a medical history form.
Mot. for Summ. J. Attach. 11, at 1, ECF No. 65-11. The form instructs the inmate or nurse
to “circle any of the following medical problems [the inmate] currently ha[s],” and lists
bipolar disease and Hepatitis B as options. Id. Plaintiff indicated he suffered from “joint
pain/stiffness,” “muscle pain,” and “numbness/tingling,” but neither bipolar disease nor
Hepatitis B. Id.

On September 15, 2004, Plaintiff also underwent a mental health

evaluation at GDCP. Mot. for Summ. J. Attach. 9, at 121-24, ECF No. 65-9. Plaintiff
indicated he had no history of mental health conditions or treatment, and he stated he did
not desire mental health treatment. Id. at 122-24. The psychiatrist recommended no further
mental health evaluation. Id. at 121.
On September 16, 2004, Plaintiff underwent lab work at GDCP. See Mot. for
Summ. J. Attach. 12, at 1, ECF No. 65-12. A person with Hepatitis B shows elevated levels
of alanine aminotransferase (“ALT”), aspartate aminotransferase (“AST”), bilirubin,
alkaline phosphatase, albumin, mean corpuscular volume (“MCV”), and mean corpuscular
9

Case 5:18-cv-00071-MTT-MSH Document 85 Filed 01/13/20 Page 10 of 25

hemoglobin (“MCH”). Fye Decl.

7-10, ECF No. 65-4. Plaintiffs lab work revealed

normal levels of ALT, AST, bilirubin, alkaline phosphatase, and albumin, and low levels
of MCV and MCFI. Mot. for Summ. J. Attach. 12, at 1. On October 26, 2004, Plaintiff
underwent lab work, which again revealed normal levels of ALT, AST, bilirubin, alkaline
phosphatase, and albumin. Mot. for Summ. J. Attach. 13, at 1.
On or about September 18, 2007, Plaintiff was transferred to Ware State Prison
(“WSP”) in Waycross, Georgia. See Mot. for Summ. J. Attach. 7, at 164, ECF No. 65-7.
Sometime between September 18, 2007, and August 24, 2010, Plaintiff and a WSP nurse
completed a second medical history form. See Mot. for Summ. J. Attach. 11, at 2. Plaintiff
did not indicate he suffered from bipolar disease or Hepatitis B. Id. Plaintiff and WSP
nurses completed a third and fourth medical history form on August 24,2010, and June 12,
2012, respectively. Id. at 3-4. Plaintiff did not indicate he suffered from bipolar disease
or Hepatitis B on either form. Id.
Plaintiff states he was transferred to MSP on May 14, 2013. Pl.’s Dep. 11:05-17.
Defendant Fye was the MSP medical director. Fye Decl. 3. Plaintiff alleges he informed
Defendant Fye he had both Hepatits B and bipolar disease on the day he arrived at MSP.
Pl.’s Dep. 11:08-21. Plaintiff underwent lab work on March 7, 2016, March 30, 2016,
September 2, 2016, September 21, 2016, March 30, 2017, July 5, 2017, September 23,
2017, and December 27, 2017. Mot. for Summ. J. Attach. 12, at 2-15. Each round of lab
work revealed normal levels of ALT, AST, bilirubin, alkaline phosphatase, and albumin,
and low levels of MCV and MCH. Id. On September 27, 2017, a CT scan of Plaintiff s
abdomen revealed a normal liver with “[n]o enhancing hepatic lesions.” Mot. for Summ.
10

Case 5:18-cv-00071-MTT-MSH Document 85 Filed 01/13/20 Page 11 of 25

J. Attach. 14, at 1, ECF No. 65-14. Defendant Fye retired from MSP in October 2017. Fye
Decl. Tf 3. On February 16, 2018, Plaintiff and a MSP nurse completed a fifth medical
history form. Mot. for Summ. J. Attach. 11, at 5. Plaintiff indicated he suffered from
bipolar disease and Flepatitis B, among other conditions. Id.

On the same day, he

underwent lab work, which revealed normal levels of ALT, AST, bilirubin, alkaline
phosphatase, and albumin, and low levels of MCV and MCH. Mot. for Summ. J. Attach.
12, at 16-17. Plaintiff signed and mailed his complaint four days later—on February 20,
2018. Compl. 6.
On August 8, 2018, Plaintiff was evaluated at the MSP clinic. Mot. for Summ. J.
Attach. 9, at 83. The clinician noted that Plaintiff claimed to have suffered from Hepatitis
B since 1995 and wrote question marks next to this note. Id. On November 19, 2018,
Plaintiff underwent lab work and imaging. Id. at 88-91. His lab work revealed normal
levels of ALT, AST, bilirubin, alkaline phosphatase, and albumin, and low levels of MCV
and MCH. Id. at 90. On December 12, 2018, Plaintiff underwent testing for Hepatitis A,
Hepatitis B, and the Hepatitis C Virus (“HCV”). Mot. for Summ. J. Attach. 15, at 1-3,
ECF No. 65-15. The test revealed he never had Hepatitis A or B. Id. at 1-2. Plaintiffs
HCV test was reactive, but the result indicated either (1) he is no longer infected and had
resolved the infection, (2) the test was a false positive, or (3) he had not completely resolved
the infection. Id. at 3.
On December 19, 2018, Plaintiff was evaluated at the MSP clinic concerning his
return from an outside cardiology appointment. Mot. for Summ. J. Attach. 9, at 61. The
evaluation form indicates Plaintiff has HCV, and the condition is controlled and stable. Id.
11

Case 5:18-cv-00071-MTT-MSH Document 85 Filed 01/13/20 Page 12 of 25

On May 22, 2019, Plaintiff underwent lab work and Hepatitis testing. Id. at 107-110. His
lab work revealed normal levels of ALT, AST, bilirubin, alkaline phosphatase, and
albumin, and low levels of MCV and MGH. Id. at 107-08. The Hepatitis tests could not
identify Plaintiffs HCV genome, which “is usually due to low viral load, but could also be
due to the presence of inhibitors or mutations in the viral genome.” Id. at 110.
C.

Statute of Limitations

Defendants argue they are entitled to summary judgment on Plaintiffs claims
against Defendant Fye because Plaintiff filed his complaint after the applicable statute of
limitations (“SOL”) had expired. Defs.’ Br. in Supp. of Mot. for Summ. J. 6. The Court
recommends that Defendants’ motion be denied on this ground.
1.

Statute of Limitations Standard

It is well settled that the forum state’s limitation period applicable to personal injury
actions is applied to an action brought pursuant to § 1983. Wallace v. Kato, 549 U.S. 384,
386 (2007). The Georgia SOL for personal injury is two years. O.C.G.A. § 9-3-33; see
also Bell v. Metro. Atlanta Rapid Transit Auth., 521 F. App’x 862, 865 (11th Cir. 2013)
(“The forum state’s statute of limitations for personal injury actions applies to § 1983
claims, which in Georgia is two years.”). A SOL begins to run when a cause of action
accrues—in other words, when “the facts which would support a cause of action are
apparent or should be apparent to a person with a reasonably prudent regard for his rights.”
Lovett v. Ray, 327 F.3d 1181, 1182 (11th Cir. 2003) (internal quotation marks and citation
omitted).

12

Case 5:18-cv-00071-MTT-MSH Document 85 Filed 01/13/20 Page 13 of 25

The time a plaintiff spends exhausting administrative remedies may toll the SOL.
See Leal v. Ga. Dep’t of Corr., 254 F.3d 1276, 1280 (11th Cir. 2001) (vacating district
court's dismissal of a § 1983 suit on SOL grounds because it was possible plaintiffs
exhaustion of administrative remedies had tolled the limitations period); Clark v. Fye, 5:18cv-71, 2019 WL 1354405 at *3-4 (M.D. Ga. Mar. 26, 2019) (denying a motion to dismiss
on SOL grounds where defendants failed to show that the limitations period had not been
tolled by plaintiffs pursuit of a prison grievance).
2.

Defendants ’ Motion

Defendants argue Plaintiffs claims against Defendant Fye accrued in May 2013—
when he had his only medical encounter with Defendant Fye. Defs.’ Br. in Supp. of Mot.
for Summ. J. 6. Plaintiff claims he has sought and been denied medical care since
Defendant Fye evaluated him in 2013. Compl. 5 (“Prison officials have refused to treat
me for Hepatitis B or for bi-polar disorder for going on [fifteen] years.”). Plaintiff filed his
complaint on February 20, 2018.3 Compl. 6. Defendants contend his claims are barred by
the two-year SOL because “[t]his case was filed almost five years after Plaintiffs one
medical interaction with [Defendant] Fye.” Defs.’ Br. in Supp. of Mot. for Summ. J. 6.
Defendants previously raised this SOL defense in their motion to dismiss. See
Defs.’ Br. in Supp. of Mot. to Dismiss 2-4, ECF No. 39-1. The Court denied their motion

3 Although the Court did not receive Plaintiffs complaint until February 26,2018, Plaintiff signed
the complaint on February 20, 2018. “Under the prison mailbox rule, a pro se prisoner’s court
filing is deemed filed on the date it is delivered to prison authorities for mailing.” United States v.
Glover, 686 F.3d 1203, 1205 (11th Cir. 2012) (internal quotation marks omitted). “Unless there
is evidence to the contrary, like prison logs or other records, we assume that a prisoner’s motion
was delivered to prison authorities on the day he signed it.” Id.
13

Case 5:18-cv-00071-MTT-MSH Document 85 Filed 01/13/20 Page 14 of 25

on this ground, observing that Defendants effectively argued “the 2013 deprivation gave
the Plaintiff notice of the Defendants’ conduct, so the statute of limitations on any claims
for those deprivations began running in 2013 (or not long thereafter), with the result that
every claim for damages, whether it arose in 2013 or 2017, is time-barred.” Order 6-7,
Mar. 26, 2019, ECF No. 56. At the motion to dismiss stage, “Defendants cite[d] no
authority for the proposition that a claim can accrue, run, and expire before the facts the
claim is based on even occur.” Id. at 7. In their motion for summary judgment, Defendants
again fail to cite any authority supporting their argument that the alleged 2013 denial of
medical care gave Plaintiff notice of future denials of medical care, which allegedly
occurred during the two years preceding Plaintiffs filing of his complaint. Thus, they are
not entitled to summary judgment for claims arising during this two-year time frame.
Additionally, Defendants are not entitled to summary judgment for Plaintiffs
claims arising from denials of medical care which occurred before this two-year time frame
because Plaintiff may be entitled to tolling of the SOL. Plaintiff alleges he filed multiple
grievances concerning Defendants’ denial of medical care, but Defendants refused to
respond to his grievances. Compl. 3; Am. Compl. 1, ECF No. 12; Am. Claims for Relief
1, ECF No. 45. The SOL is tolled for the time Plaintiff spends exhausting administrative
remedies. Leal, 254 F.3d at 1280. Because Plaintiff alleges he filed grievances concerning
his claims against Defendants, and Defendants did not provide any evidence related to
Plaintiffs grievance history, Defendants fail to show Plaintiffs claims are time-barred.
Lindley, 515 F. App’x at 815. The Court recommends that Defendants’ motion be denied
on this ground.
14

Case 5:18-cv-00071-MTT-MSH Document 85 Filed 01/13/20 Page 15 of 25

D.

Deliberate Indifference

Defendants argue they are entitled to summary judgment on Plaintiffs deliberate
indifference claim because Defendant Fye was not deliberately indifferent to Plaintiffs
serious medical needs.

Defs.’ Br. in Supp. of Mot. for Summ. J. 6-8.

The Court

recommends that Defendants’ motion be granted on this ground.
1.

Deliberate Indifference Standard

“The Eighth Amendment’s prohibition against cruel and unusual punishments
protects a prisoner from deliberate indifference to serious medical needs.” Kuhne v. Fla.
Dep’t of Corr., 745 F.3d 1091, 1094 (11th Cir. 2014) (internal quotation marks and
citations omitted). “[T]o prevail on a deliberate indifference to serious medical need claim,
[a plaintiff] must show: (1) a serious medical need; (2) the defendants’ deliberate
indifference to that need; and (3) causation between that indifference and the plaintiffs
injury.” Mann v. Taser Int’l, 588 F.3d 1291,1306-07 (11th Cir. 2009). “A serious medical
need is considered one that has been diagnosed by a physician as mandating treatment or
one that is so obvious that even a lay person would easily recognize the necessity for a
doctor’s attention.” Farrow v. West, 320 F.3d 1235, 1243 (11th Cir. 2003) (internal
quotation marks and citation omitted). Deliberate indifference requires a showing of a
“subjective knowledge of a risk of serious harm” and “disregard of that risk ... by conduct
that is more than mere negligence.” Brown v. Johnson, 387 F.3d 1344, 1351 (11th Cir.
2004) (citation omitted).
Disagreement over the mode of treatment does not constitute deliberate indifference
for the purposes of the Eighth Amendment. See Hamm v. Dekalb Cty., 11A F. 2d 1527,
15

Case 5:18-cv-00071-MTT-MSH Document 85 Filed 01/13/20 Page 16 of 25

1575 (11th Cir. 1985) (“[A]n inmate’s desire for a different mode of treatment does not
rise to the level of deliberate indifference.”). Negligence in treatment, even rising to the
level of medical malpractice, is not deliberate indifference. Estelle v. Gamble, 429 U.S.
97, 106 (1976). Instead, the treatment must be “so grossly incompetent, inadequate, or
excessive as to shock the conscience or to be intolerable to fundamental fairness.” Harris
v. Thigpen, 941 F.2d 1495, 1505 (11th Cir. 1991) (internal quotation marks and citations
omitted). “[C]onduct deliberately indifferent to serious medical needs has included: (1)
grossly inadequate care; (2) a decision to take an easier but less efficacious course of
treatment; and (3) medical care that is so cursory as to amount to no treatment at all.”
Melton v. Abston, 841 F.3d 1207, 1223 (11th Cir. 2016); Rogers v. Evans, 792 F.2d 1052,
1058 (11th Cir. 1986) (“Medical care so inappropriate as to evidence intentional
maltreatment or refusal to provide essential care violates the eighth amendment.”).
2.

Defendants ’ Motion

Defendants argue Defendant Fye was not deliberately indifferent to Plaintiffs
serious medical needs arising from his claimed conditions of Hepatitis B and bipolar
disorder. Br. in Supp. of Mot. for Summ. J. 6-8. The Court agrees and recommends that
Defendants’ motion be granted on this ground.
i.

Hepatitis B

First, Defendants argue Defendant Fye lacked subjective knowledge of Plaintiff s
Hepatitis B and was not deliberately indifferent to the condition because Plaintiff did not
claim to have Hepatitis B until after Defendant Fye retired. Id. at 7. Plaintiff alleges he
was first diagnosed with Hepatitis B in 1995 at a plasma center in Las Vegas, Nevada. Pl.’s
16

Case 5:18-cv-00071-MTT-MSH Document 85 Filed 01/13/20 Page 17 of 25

Dep. 9:18-10:09. He contends that he told Defendant Fye he had Hepatitis B the day he
arrived at MSP and that she refused to treat him. Pl.’s Dep. 11:05-12:11; Compl. 5.
The earliest medical record after Plaintiffs arrival at MSP and alleged conversation
with Defendant Fye on May 14, 2013, documents an MSP clinic visit on June 10, 2013.
Mot. for Summ. J. Attach. 8, at 55-56, ECF No. 65-8. The clinician evaluated Plaintiff for
gastroesophageal reflux disease (“GERD”), and his notes do not mention Hepatitis B. Id.
The first medical record to mention Hepatitis B since Plaintiff was incarcerated in 2004 is
his fifth medical history form, which he completed on February 16, 2018—at least three
months after Defendant Fye retired in October 2017. Mot. for Summ. J. Attach. 11, at 5;
Fye Decl.

3. He completed four other medical history forms between 2004 and 2012,

and he did not indicate he had Hepatitis B on any form. Mot. for Summ. J. Attach. 11, at
1-4. Other than Plaintiffs conclusory allegation that he informed Defendant Fye he had
Hepatitis B, there is no evidence showing that he mentioned Hepatitis B before completing
his February 16, 2018, medical history form. See Morefield v. Brewton, 442 F. App’x 425,
427 (11th Cir. 2011) (per curiam) (holding that the district court properly granted summary
judgment to defendant prison officials on inmate plaintiffs deliberate indifference claim
where plaintiff supported his claim with only “self-serving statements” and “conclusory
allegations” concerning his medical condition). Because Plaintiff first alleged he suffered
from Hepatitis B after Defendant Fye retired, she was not deliberately indifferent because
she lacked “subjective knowledge of a risk of serious harm” to Plaintiff arising from a
Hepatitis B infection. Brown, 387 F.3d at 1351 (citation omitted).

17

Case 5:18-cv-00071-MTT-MSH Document 85 Filed 01/13/20 Page 18 of 25

Second, Defendants argue Defendant Fye lacked subjective knowledge and was not
deliberately indifferent to Plaintiffs Hepatitis B because Plaintiff never had Hepatitis B.
Br. in Supp. of Mot. for Summ. J. 7 (“It cannot possibly be deliberate indifference to not
treat someone for a medical condition they do not have . . .

Plaintiff contends that he

was diagnosed with Hepatitis B in 1994, he informed Defendant Fye of his diagnosis, and
she refused to treat his condition. Pl.’s Dep. 9:18-10:09, 11:05-12:25. On December 12,
2018, Plaintiff underwent Hepatitis testing, which revealed he never had Hepatitis B,
although he may have had HCV at some point. Mot. for Summ. J. Attach. 15, at 1-3, ECF
No. 65-15. Because Plaintiff never had Hepatitis B, Defendant Fye could not have had
“subjective knowledge of a risk of serious harm” to Plaintiff arising from a Hepatitis B
infection. Brown, 387 F.3d at 1351 (citation omitted).
Plaintiff may claim Defendant Fye was deliberately indifferent by failing to test
Plaintiff for Hepatitis B or HCV between his arrival at MSP in May 2013 and her retirement
in October 2017 because he informed Defendant Fye that he believed he had some form of
Hepatitis. Even assuming Plaintiff believed he was diagnosed with some form of Hepatitis
in 1994 and told Defendant Fye he suffered from some form of Hepatitis, Defendant Fye’s
actions do not constitute deliberate indifference. Since 2004, Plaintiff has had numerous
encounters with GDOC medical staff to address conditions including allergies, hay fever,
skin rashes, hammer toes, back pain, irritable bowel syndrome, GERD, and chronic pain
syndrome. See generally Mot. for Summ. J. Attachs. 6-9. GDOC medical staff performed
lab work to diagnose and treat these conditions. See, e.g., Mot. for Summ. J. Attach. 12.
According to Defendant Fye, a person with Hepatitis B shows elevated levels of ALT,
18

Case 5:18-cv-00071-MTT-MSH Document 85 Filed 01/13/20 Page 19 of 25

AST, bilirubin, alkaline phosphatase, albumin, MCV, and MCH. Fye Decl.

7-10.

Plaintiff underwent nine rounds of lab work between his incarceration in 2004 and
Defendant Fye’s retirement in October 2017, and each revealed normal levels of ALT,
AST, bilirubin, alkaline phosphatase, and albumin, and either normal or low levels of MCV
and MCH. Mot. for Summ J. Attach. 12, at 1-13; Mot. for Summ. J. Attach. 13, at 1.
Additionally, shortly before Defendant Fye retired, a September 27, 2017, CT scan
revealed a normal liver with “[n]o enhancing hepatic lesions.” Mot. for Summ. J. Attach.
14, at 1.
Therefore, even if Plaintiff told Defendant Fye he believed he had Hepatitis, none
of his objective medical tests indicated he was infected. Accordingly, Defendant Fye’s
failure to test or treat Plaintiff for Hepatitis did not constitute treatment “so grossly
incompetent, inadequate, or excessive as to shock the conscience or to be intolerable to
fundamental fairness.” Harris, 941 F.2d at 1505 (internal quotation marks and citations
omitted). The Court recommends that Defendants’ motion be granted on this ground as to
Plaintiffs claims arising from his alleged Hepatitis B infection.
li.

Bipolar Disease

First, Defendants argue Defendant Fye lacked subjective knowledge of Plaintiff s
bipolar disease and was not deliberately indifferent to the condition because Plaintiff did
not claim to have bipolar disease until after Defendant Fye retired. Id. at 7. Plaintiff alleges
he was diagnosed with bipolar disease as a child and rediagnosed at the Cobb County
Health Department in 2000. Pl.’s Dep. 20:21-22:03. He contends that he told Defendant
Fye he had bipolar disease on May 14, 2013—the day he arrived at MSP—and that she
19

Case 5:18-cv-00071-MTT-MSH Document 85 Filed 01/13/20 Page 20 of 25

refused to treat him. Pl.’s Dep. 11:05-12:02, 22:07-22:16; Compl. 5. When Plaintiff
arrived at GDCP, he completed a mental health evaluation on September 15, 2004, and he
indicated he had no history of mental health conditions or treatment. Mot. for Summ. J.
Attach. 9, at 121-24. He also stated he did not desire mental health treatment, and the
examining psychiatrist recommended no further mental health evaluation or treatment. Id.
at 121. Additionally, Plaintiff completed four medical history forms before his arrival at
MSP in 2013. Mot. for Summ. J. Attach. 11, at 1-4. He never indicated he suffered from
bipolar disease. Id. Plaintiffs fifth medical history form is the only document which
mentions bipolar disease. Id. at 5. Plaintiff completed this form on February 16, 2018
at least three months after Defendant Fye retired in October 2017. Id.; Fye Decl. *|j 3.
The only other mental health records are three unrelated mental health referrals: (1)
an October 19,2009, referral concerning his unfair treatment in segregation, (2) a February
20, 2018, referral concerning a sexual allegation, and (3) a March 1, 2018, referral
concerning his depression and suicidal thoughts resulting from his placement in lockdown.
Mot. for Summ. J. Attach. 9, at 116-18. None of these documents mention bipolar disease.
Other than Plaintiff s conclusory allegation that he informed Defendant Fye he had bipolar
disease, there is no evidence showing that he mentioned this condition before completing
his February 16,2018, medical history form. See Morefield, 442 F. App’x at 427. Because
Plaintiff first alleged he suffered from bipolar disease after Defendant Fye retired, she was
not deliberately indifferent because she lacked “subjective knowledge of a risk of serious
harm” to Plaintiff arising from this condition. Brown, 387 F.3d at 1351 (citation omitted).
Second, Defendants argue Defendant Fye was not deliberately indifferent to
20

Case 5:18-cv-00071-MTT-MSH Document 85 Filed 01/13/20 Page 21 of 25

Plaintiffs bipolar disorder because she was not was not authorized to diagnose or treat this
condition and Plaintiff could have sought treatment from another prison official. Br. in
Supp. of Mot. for Summ. J. 8. Fye Decl. fflf 14-15. Defendant Fye avers she is “not a
mental health professional” and “did not diagnose or treat inmates for mental health
illnesses.” Additionally, she states “[i]f [Plaintiff] thought he needed mental health
treatment, he could and should have spoken with his counselor.” Id. at 18.
GDOC Standard Operating Procedure (“SOP”) VG35-0001 provides that “[a]ny
staff member may initiate a referral for a routine mental health evaluation.” Mot. for
Summ. J. Attach. 16, at 3, ECF No. 65-16. Thus, under the SOP, Defendant Fye was
permitted to refer Plaintiff for mental health treatment when he allegedly claimed to have
bipolar disease. The SOP, however, also lists six “behaviors that should result in a [mental
health] referral” and four behaviors “which must result in a [mental health] referral.” Id.
at 4. Neither lists an inmate’s claim of mental illness as a basis for mandatory referral. Id.
Therefore, even assuming Plaintiff told Defendant Fye he had bipolar disorder, her failure
to refer him for a mental health evaluation did not constitute treatment “so grossly
incompetent, inadequate, or excessive as to shock the conscience or to be intolerable to
fundamental fairness.” Harris, 941 F.2d at 1505 (internal quotation marks and citations
omitted). The Court recommends that Defendants’ motion be granted on this ground as to
Plaintiffs claim arising from his alleged bipolar disease.
E.

Qualified Immunity

Defendants argue they are entitled to summary judgment on Plaintiffs claims
against Defendant Fye because she is entitled to qualified immunity. Defs.’ Br. in Supp.
21

Case 5:18-cv-00071-MTT-MSH Document 85 Filed 01/13/20 Page 22 of 25

of Mot. for Summ. J. 8-9. In the alternative, the Court recommends that Defendants’
motion be granted on this ground.
1.

Qualified Immunity Standard

“[(Qualified immunity completely protects government officials performing
discretionary functions from suit in their individual capacities unless their conduct violates
clearly established statutory or constitutional rights of which a reasonable person would
have known.” Gonzalez v. Reno, 325 F.3d 1228, 1233 (11th Cir. 2003) (internal quotation
marks and citation omitted). “The purpose of qualified immunity is to allow officials to
carry out discretionary duties without the chilling fear of personal liability or harrassive
litigation, protecting from suit all but the plainly incompetent or one who is knowingly
violating federal law.” McCullough v. Antolini, 559 F.3d 1201, 1205 (11th Cir. 2009)
(internal quotation marks and citation omitted).
“In order to receive qualified immunity, an official must first establish that he was
acting within the scope of his discretionary authority when the alleged wrongful acts
occurred.” Id. Once the defendant shows that he was acting within his discretionary
authority, the burden then shifts to the plaintiff to establish that qualified immunity does
not apply. Cottone v. Jenne, 326 F.3d 1352,. 1358 (11th Cir. 2004). To overcome a claim
of qualified immunity, a plaintiff must “show[ ] (1) that the official violated a statutory or
constitutional right, and (2) that the right was clearly established at the time of the
challenged conduct.” Wood v. Moss, 572 U.S. 744, 757 (2014) (internal quotation marks

22

Case 5:18-cv-00071-MTT-MSH Document 85 Filed 01/13/20 Page 23 of 25

and citation omitted).4
2.

Defendant’s Motion

Defendants argue Defendant Fye is entitled to qualified immunity for Plaintiffs
deliberate indifference claim arising from her treatment of his alleged Hepatitis B and
bipolar disease. Br. in Supp. of Mot. for Summ. J. 8-9. It is undisputed in this case that
Defendant Fye acted within her discretionary authority in allegedly treating Plaintiff and
serving as the medical director of MSP. Because that determination is made, the burden
then shifts to Plaintiff to show that Defendant Fye is not entitled to qualified immunity.
For the reasons stated above, the Court determines that Defendant Fye’s treatment of
Plaintiff does not constitute deliberate indifference to a serious medical need in violation
of the Eighth Amendment or any other constitutional right. Therefore, Plaintiff has failed
to meet that burden, and Defendant Fye is entitled to qualified immunity on Plaintiffs
deliberate indifference claim. The Court recommends that Defendants’ motion be granted
on this ground in the alternative.
F.

Equitable Relief

Defendants argue they are entitled to summary judgment on Plaintiffs claim for an
injunction against Defendants Fye and Perry because Plaintiff is not entitled to equitable
relief as a matter of law. Defs.’ Br. in Supp. of Mot. for Summ. J. 9-11. Plaintiff argues
he is entitled to an injunction to compel Defendants to provide him medical care for his
alleged Hepatitis B and bipolar disease in a manner compliant with the Eighth Amendment.

4 Courts should use their discretion in determining which prong of the qualified immunity inquiry
to address first. McCullough, 559 F.3d at 1205.
23

Case 5:18-cv-00071-MTT-MSH Document 85 Filed 01/13/20 Page 24 of 25

Am. Compl. 1-3; Am. Claims for Relief 1-3. For the reasons stated above, the Court
determines that Defendant Fye’s conduct did not constitute deliberate indifference.
Accordingly, Plaintiff is not entitled to an injunction against either Defendant Fye or
Defendant Perry to remedy this conduct. The Court recommends that Defendants’ motion
be granted as to this ground.
CONCLUSION
For the foregoing reasons, Plaintiffs motion for independent medical tests (ECF
No. 63), motions to stay (ECF Nos. 75, 79, 84), and motions to compel (ECF Nos. 80, 81)
are denied. The Court recommends that Defendants’ motion for summary judgment (ECF
No. 65) be granted. Pursuant to 28 U.S.C. § 636(b)(1), the parties may serve and file
written objections to this Recommendation, or seek an extension of time to file objections,
within fourteen (14) days after being served with a copy hereof. The District Judge shall
make a de novo determination of those portions of the Recommendation to which objection
is made. All other portions of the Recommendation may be reviewed for clear error.
The parties are hereby notified that, pursuant to Eleventh Circuit Rule 3-1, “[a] party
failing to object to a magistrate judge’s findings or recommendations contained in a report
and recommendation in accordance with the provisions of 28 U.S.C. § 636(b)(1) waives
the right to challenge on appeal the district court’s order based on unobjected-to factual
and legal conclusions if the party was informed of the time period for objecting and the
consequences on appeal for failing to object. In the absence of a proper objection, however,
the court may review on appeal for plain error if necessary in the interests of justice.”
SO ORDERED and RECOMMENDED, this 13th day of January, 2020.
24

Case 5:18-cv-00071-MTT-MSH Document 85 Filed 01/13/20 Page 25 of 25

S/Stephen Hyles
UNITED STATES MAGISTRATE JUDGE

25

Case 5:18-cv-00071-MTT-MSH Document 93 Filed 03/02/20 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
MACON DIVISION
*

ROBERT L. CLARK,
Plaintiff,

*

v.
*

Case No.

5:18-cv-71 -MTT-MSH

CHIQUITA A. FYE, et al,
*

Defendants.

*

JUDGMENT
Pursuant to this Court’s Order dated March 2, 2020, having accepted the recommendation of the
United States Magistrate Judge, in its entirety, JUDGMENT is hereby entered dismissing this action.
This 2nd day of March, 2020.
David W. Bunt, Clerk

s/ Gail G. Sellers, Deputy Clerk

Case 5:18-cv-00071-MTT-MSH Document 92 Filed 03/02/20 Page 1 of 5

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
MACON DIVISION
ROBERT L. CLARK,
Plaintiff,
v.

)
)
)
)

)

CHIQUITA A. FYE, etal.,

Defendants.

CIVIL ACTION NO. 5:18-cv-71 (MTT)

)
)
)
)
)
)

ORDER
United States Magistrate Judge Stephen Hyles recommends granting the
Defendants’ motion for summary judgment. Doc. 85. The Plaintiff filed an objection, so
pursuant to 28 U.S.C. § 636(b)(1), the Court reviews de novo the portions of the
Recommendation to which he objects.
In response to the Magistrate Judge’s recommendation that the Court grant
summary judgment on the Plaintiff’s claim arising from his alleged bipolar disorder, the
Plaintiff in his objection argues that in 2013 Dr. Fye discontinued his Elavil prescription,
which had been prescribed to help him sleep and reduce his anxiety. Doc. 88 at 4. As
the Recommendation makes clear, there is no evidence that the Plaintiff actually has a
bipolar disorder, and there is no evidence that he claimed to have a bipolar disorder
before February 2018, other than the Plaintiffs “conclusory” allegation that he told Dr.
Fye in 2013 that he had bipolar disorder. Doc. 85 at 20. That the Plaintiff had a
prescription to help him sleep and reduce anxiety would not have given Dr. Fye notice
of his alleged bipolar disorder. Thus, in the face of no evidence that the Plaintiff has or

Case 5:18-cv-00071-MTT-MSH Document 92 Filed 03/02/20 Page 2 of 5

ever had a bipolar disorder and that he never claimed to have such a disorder until
2018, there stands only his conclusory allegation. Still, his alleged 2013 statement to
Dr. Fye is some evidence that Dr. Fye was subjectively aware of his unsupported claim
to have a bipolar disorder. But as the Recommendation makes clear, even if that were
sufficient to create a fact issue regarding Dr. Fye’s subjective awareness, her response
or lack of response to that conclusory allegation does not, as a matter of law, constitute
deliberate indifference. That Dr. Fye discontinued medication for sleep and anxiety
relief does not change that.
Additionally, the Court finds that the Defendants’ statute of limitations argument
has merit. The Defendants argue that the Plaintiffs claims are time-barred because the
only alleged refusal of medical care occurred in May 2013, the statute of limitations for
deliberate indifference under 42 U.S.C. § 1983 is two years in Georgia, and the
complaint was not filed until February 2018, almost five years later. Doc. 65-1 at 6. The
Court agrees.
The Magistrate Judge rejected that argument for two reasons: first, that the
Plaintiff alleged denials of medical care which occurred after May 2013; and second
that the Plaintiffs grievance history may have tolled the statute. The Court earlier found
that those two arguments had sufficient merit at the motion to dismiss stage. Doc. 56 at
6-10. As to the first argument, the Court noted that absent tolling, any claims based on
the alleged May 2013 denial were time-barred, but “construing his complaint liberally
[the Plaintiff] alleges [Defendant Fye] refused him medical care up until the time the
complaint was filed.” Id. at 8 (citing Docs. 1 at 5; 1-1 at 1). The pleadings cited by the
Court referenced denials of treatment after May 2013 by unnamed prison medical staff,

-2-

Case 5:18-cv-00071-MTT-MSH Document 92 Filed 03/02/20 Page 3 of 5

which, liberally construed, the Court took to include Dr. Fye. But at the motion for
summary judgment stage, the Plaintiff “may not rest upon the mere allegations or
denials in its pleadings. Rather, its responses . . . must set forth specific facts showing
that there is a genuine issue for trial.” Walker v. Darby, 911 F.2d 1573, 1576-77 (11th
Cir. 1990); see also Celotex Corp. v. Catrett, 477 U.S. 317, 324 (1986). In his
deposition, the Plaintiff clarified that he only had one medical visit with Dr. Fye, in May
2013, and there is no evidence she refused him treatment after that. Doc. 65-3 at 11:812:11, 19:16-20:12. Although the Plaintiff also stated that Dr. Fye “wouldn’t talk to me
no more,” that is not sufficiently specific to state a basis for a deliberate indifference
claim. Id. at 20:10-12. The Court construed the complaint liberally at the motion to
dismiss stage. But after further narrowing the issues through discovery and the
Defendants’ motion, it is clear that there is not sufficient evidence for a reasonable jury
to find that Dr. Fye denied the Plaintiff medical care after May 2013.
The second ground for the Court’s rejection of the Defendants’ statute of
limitations argument at the motion to dismiss stage was tolling. Doc. 56 at 8; see
Lindley v. City of Birmingham, Ala., 515 F. App'x 813, 815 (11th Cir. 2013) (“[a]t the
motion-to-dismiss stage, a complaint may be dismissed on the basis of a statute-oflimitations defense only if it appears beyond a doubt that Plaintiff[] can prove no set of
facts that toll the statute.” (quotation marks and citation omitted)). The Court found that
the possibility of tolling precluded granting the motion for two reasons: mental incapacity
and exhaustion of administrative remedies. The Court noted that “the standard for
alleging mental incapacity so as to invoke the tolling provision for mental incapacity and
withstand a motion to dismiss is not so onerous.” Doc. 56 at 9-10 (emphasis added)

-3-

Case 5:18-cv-00071-MTT-MSH Document 92 Filed 03/02/20 Page 4 of 5

(quoting Meyer v. Gwinnett County, 636 F. Appx. 487 (11th Cir. 2016)). But the Court in
Meyer distinguished cases involving the Plaintiffs burden at the summary judgment
stage, which is more onerous. Meyer, 636 F. App'x at 489-90 (“None of the cases
relied on by the district court and the appellees are to the contrary because they all
concern a plaintiffs ultimate burden of proof on appeal from summary judgment, not the
sufficiency of allegations in the face of a motion to dismiss. See Martin [v. Herrington
Mill, LP], 730 S.E.2d at 165-67; Anglin v. Harris, 244 Ga.App. 140, 534 S.E.2d 874, 875
(2000); Carter v. Glenn, 243 Ga.App. 544, 533 S.E.2d 109, 111-12 (2000); Charter
Peachford Behavioral Health Sys., Inc. *490 v. Kohout, 233 Ga.App. 452, 504 S.E.2d
514, 519 (1998).”). Now that the record has been developed, it is clear there is no
evidence of mental illness or disease, much less evidence the Plaintiff has ‘“such
unsoundness of mind ... as to incapacitate [him] from managing the ordinary business
of life.’” Meyer, 636 F. App'x at 489 (quoting Martin, 316 Ga. App. at 698, 730 S.E.2d at

166).
As to grievances, the Court, liberally construing the Plaintiffs allegations, earlier
concluded that the Plaintiffs grievances may have tolled the statute of limitations. See
Leal v. Georgia Dep't of Corn, 254 F.3d 1276, 1280 (11th Cir. 2001) (“Because the
statute of limitations may have been tolled on account of [the Plaintiffs] exhaustion of
administrative remedies, it does not appear beyond a doubt from the complaint itself
that [the Plaintiff] can prove no set of facts which would avoid a statute of limitations
bar.”). But now Dr. Fye has moved for summary judgment on that issue, and the
Plaintiff has failed to respond with specific facts, or any facts for that matter, to support
an argument for tolling. Based on the two-year statute of limitations, in light of the

-4-

Case 5:18-cv-00071-MTT-MSH Document 92 Filed 03/02/20 Page 5 of 5

Plaintiffs failure to produce evidence supporting tolling or even to argue tolling at the
summary judgment stage, the Court finds that the statute of limitations bars the May
2013 claims.
For those reasons, the Court finds the Defendants’ statute of limitations defense
is meritorious. As modified, the Court accepts and adopts the findings, conclusions,
and recommendations of the Magistrate Judge. The Recommendation (Doc. 85) is
ADOPTED as modified and made the Order of the Court. Accordingly, the
Defendants’ motion for summary judgment (Doc. 65) is GRANTED, and the Plaintiffs
claims are DISMISSED with prejudice.
SO ORDERED, this 2nd day of March, 2020.
S/ Marc T. Treadwell
MARC T. TREADWELL, JUDGE
UNITED STATES DISTRICT COURT

-5-

